HHS/OIG, Audit -"Review of Controls to Report Wage Data at Florida Hospital Heartland
for the Period January 1, 2003, Through December 31, 2003,"(A-04-05-02002)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Controls to Report Wage Data at Florida Hospital Heartland
for the Period January 1, 2003, Through December 31, 2003," (A-04-05-02002)
May 24, 2006
Complete
Text of Report is available in PDF format (756 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Florida Hospital Heartland (the hospital)
complied with Medicare requirements for reporting wage data in its fiscal year (FY) 2003
Medicare cost report.  The hospital did not fully comply with Medicare requirements
for reporting wage data in its FY 2003 Medicare cost report.  The hospital overstated
its wage data by $909,856 and 52,895 hours.
We recommended that the hospital (1) submit a revised FY 2003 Medicare cost report to the
fiscal intermediary to correct the wage data overstatements totaling $909,856 and 52,895
hours and (2) implement review and reconciliation procedures to ensure that the wage data
reported on future Medicare cost reports are accurate, supportable, and in compliance with
Medicare requirements.  The hospital agreed with our findings and recommendations except
for our finding regarding home office costs resulting from unallowable supplemental executive
compensation.